                                   CLOSEOUT FOR M96010002


In December 1996, the Office of General Counsel at the National Science Foundation

& rovided OIG with several messages they had received from the complainant,
             that contained allegations of Institutional Review Board (IRB) violations and
                                                                                                    w
intellectual and data theft. After numerous communications with the complainant to
understand the support for these allegations, OIG determined that the complainant was
claiming that various unidentified administrators at                                       (the
University) had provided her with support to develop a program designed to retain women in
the engineering program at the University as well as to collect and analyze data on these
women. Her program appeared to be successful; however, she had been removed from the
position. She alleged that a Director and former ~ i r e c t o rof~ a program at the University
used or discussed her work without citation to her and that her subsequent allegations against
them had received a biased review at the University. She expanded her allegations to include
the unidentified administrators' use of her data in NSF progress reports and applications
without citation to her. The complainant said that she had received several thousand dollars
in support from the ~ ~ ~ - s u ~ ~ o r t e d ~ o a l i t i o n . ~

        The complainant proyided copious amounts of information on her efforts to build a
research program at the University, the course she taught with the former Director, and her
efforts at the University to pursue the allegations. We found that the complainant's allegations
had been reviewed by a Vice Provost, the head of the Institutional Review Board, and the
Affirmative Action Officer. None of these reviews found substance to the intellectual or data
theft allegations and two concluded that despite the many documents provided by the
complainant none specifically identified the information that had allegedly been taken. The
complainant stated that one official had concluded that the departure of the former Director
for an industrial position had "resolved the situation and no further action was needed." One
of these officials stated that the complainant should work on publishing her results and
publication would establish her priority claim. This statement apparently echoed a suggestion
by a Dean that the complainant should work on publishing her results.

       The documents supplied by the complainant show that, while she may have




           -
spearheaded the efforts she claims as hers, she was also employed by the University to
conduct the course and to gather the data. The documents show that it is the complainant's
position that she is the only individual who legitimately should be allowed to discuss the


allegations were received her appointment had not been renewed.
  MS. i               s the former Director of the f-r~rogram                         at the University, and Dr.
!                          is the current Director of that Program.
3 Proposal                  entitled, "                                                                           I


reuuested $4.000.000 in suuuort over a 5-year period. It involved activities at several universities including
                                                                  95. The renewal award i               s entitled:
                                                                                              " and will provide
approximately $1 1,600,000 over a 5-year period.


                                             Page 1 of 2                                     M96-02
                             CLOSEOUT FOR M96010002

project. However, the complainant's evidence showed that over an extended period, she
freely interacted with those individuals she subsequently accused of intellectual and data theft,
one of which could nominally have been considered her supervisor. This latter individual
participated in the project and had made substantive comments on the project plan. We could
find no evidence in the complainant's materials that showed that these individuals' discussions
of the project were inappropriate. Further, the complainant provided no evidence that either
individual had produced written materials that inappropriately asserted priority over the
project or that failed to provide her with acknowledgment.

        The complainant alleged that her ideas and information may have been used without
attribution in NSF submissions by unidentified University administrators. OIG reviewed the
Coalition's two NSF awards and annual reports and could find no unattributed discussion of
the complainant's work. OIG concluded that there was no substance to this latter allegation.
The complainant has left the University and it has permitted her access to the data to enable
her to continue her analyses.

        Separately, the complainant alleged that, without her knowledge, her data were used
by individuals in ways that violated the Human Subjects Regulations. We learned that one of
the complainants' graduate assistants had posted confidential information about the
complainant's human subjects on a publicly available computer network which, if accessed
could have breached the confidentiality of the data and that her assistants had manipulated the
data in unauthorized ways. However, the IRB found no evidence of actual breaches of -
confidentiality. After reviewing the situation, the Institutional Review Board (IRB) stated that
the complainant, as the investigator, was ultimately responsible for these data. The IRB
instructed the complainant to secure this information and to institute practices to ensure the
future confidentiality of the information. The complainant did so. We concluded that the IRB
acted appropriately and there was no need for further inquiry by our office.

       This inquiry is closed and no further action will be taken in this case.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2                                 M96-02
